No. 20-

 

IN THE
Supreme Court of the United States

BoFlI HOLDING, INC., e¢ al.,

Petitioners,
v.

HOUSTON MUNICIPAL EMPLOYEES PENSION SYSTEM,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,762 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 26, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
